           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review on the                             Date:    August 26, 2014
           Single Audit of King County, Washington
           Report No. QC-2014-091


  From:    George E. Banks, IV                                                 Reply to
                                                                               Attn. of:   JA-20
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region X


           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for King County, Washington (County). This report presents the
           results of our Quality Control Review (QCR) on DOT’s major grant programs
           included in the County’s single audit performed by the Washington State
           Auditor’s Office (State Auditor) for the County’s fiscal year ended December 31,
           2012. During this period, the County expended approximately $161 million from
           DOT grant programs. The State Auditor determined that DOT’s major programs
           were the Federal Transit Cluster and the Highway Planning and Construction
           Cluster. However, we limited our review’s scope to the Federal Transit Cluster
           because its funds were directly awarded to the County. No funds from the
           Highway Planning and Construction Cluster were directly awarded to the County.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           The State Auditor rendered an unmodified opinion on the County’s financial
           statements and compliance with DOT’s major programs requirements for the
           Federal Transit Cluster and the Highway Planning and Construction Cluster and
           did not question any costs. 1
           1
              The single audit report issued by the Washington State Auditor’s Office is available upon request to
           singleauditrequest@oig.dot.gov.
                                                                                 2



SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended, and OMB Circular A-133; and
(2) the extent to which we could rely on the auditors’ work on the Federal Transit
Cluster.

RESULTS

We determined that the State Auditor’s audit work was Acceptable, and therefore,
met the requirements of the Single Audit Act, OMB Circular A-133, and the DOT
major program reviewed. We found nothing to indicate that the State Auditor’s
opinion on DOT’s major program was inappropriate or unreliable.

However, as part of our desk review, we identified the following deficiencies on
the Data Collection Form (DCF).

• A finding that affected the Environmental Protection Agency’s Capitalization
  Grants for Clean Water State Revolving Funds was incorrectly identified as
  Allowable Cost/Cost Principles (Compliance Requirement B). It should have
  been the Davis-Bacon Act (Compliance Requirement D).

• The Highway Planning and Construction was incorrectly identified as a direct
  award to King County.

King County and the State Auditor have made the revisions to the DCF and
resubmitted it to the Federal Audit Clearinghouse.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Chief Accountant, King County, Washington
    Audit Manager, Washington State Auditor’s Office
    National Single Audit Coordinator, EPA
